No. 20

-

IN THE

SUPREME COURT OF THE UNITED STATES

MARK PHILLIP CARTER, Petitioner,
V.

UNITED STATES OF AMERICA, Respondent.
APPENDIX

ANGELA CAMPBELL
Counsel ofRecordfor Petitioner
DICKEY, CAMPBELL & SAHAG LAW FIRM, PLC.
301 East Walnut Street, Suite I
Des Moines, Iowa 50309
(515) 288-5008
angela(iowajustice.com

17

APPENDIX TABLE OF CONTENTS

Eighth Circuit Pane! Opinion, No. 19-1 153, fi!ed May 29, 2020

..................................................

Order Denying Rehearing and Rehearing En Banc, filed July 13, 2020
Judgment of the District Court, filed January 16, 2019

.......................................

.................................................................

District Court Transcript of Sentencing Hearing (excerpt)

............................................................

19

31
32
39

1tInitib 'tati

QEourt

of ppat

jfor tje Qijjtj Qtirtutt

No. 19-1153

United States of America

Plaintff- Appellee
V.

Mark Phillip Carter, II
Defendant Appellant
-

Human Trafficking Institute

Amicus on Behalf ofAppellee(s)
No. 19-1172

United States of America
Plaintff- Appellee
V.

Breeanna Lynae Brown, also known as BB

Defendant Appellant
-

Appellate Case: 19-1153

Page: 1

19
Date Filed: 05/29/2020 Entry ID: 4918055

Human Trafficking Institute
Amicus on B ehaifofAppellee(s)
No. 19-1177

United States of America
Plain tiff- Appellee
V.

Sarina Ann Williams
Defendant Appellant
-

Human Trafficking Institute

Amicus on B ehaifofAppellee(s)
No. 19-1344

United States of America

Plain tiff- Appellee
V.

Ronzell Montez Williams, also known as LV

Defendant Appellant
-

-2Appellate Case: 19-1153

20

Page: 2

Date Filed: 05/29/2020 Entry ID: 4918055

Human Trafficking Institute

Arnicus on BehalfofAppellee(s)
No. 19-1345

United States of America
Plain tff- Appellee
I,,

Darren 0. Coleman, also known as DC

Defendant Appellant
-

Human Trafficking Institute

Amicus on B ehaifofAppellee (s)
Appeals from United States District Court
for the Southern District of Iowa Des Moines
-

Submitted: March 12, 2020
Filed: May 29, 2020
Before ERICKSON, GRASZ, and KOBES, Circuit Judges.
KOBES, Circuit Judge.

-3Appellate Case: 19-1153

21

Page: 3

Date Filed: 05/29/2020 Entry ID: 4918055

This case involves five defendants: Mark Philip Carter II, Darren 0. Coleman,
Sarina Ann Williams, Ronzell Montez Williams, and Breeanna Lynae Brown. All
were members of a prostitution and sex trafficking conspiracy based in Iowa. Each
pleaded guilty to at least one charged offense, and all appeal their sentences. We
affirm.
I.

Carter was charged with several counts related to conspiracy to engage in sex
trafficking and prostitution of five victims. He pleaded guilty to sex trafficking
children. 18 U.S.C. § 159 1(a)(1) & (b)(2). Coleman was charged with several counts
relating to conspiracy to engage in sex trafficking and prostitution of two victims. He
pleaded guilty to assisting an individual to engage in prostitution, 18 U.S.C.
§ 2422(a), and to coercing and enticing an individual to engage in prostitution, 18
U.S.C. § 1591(a)(1), (a)(2), & (b)(1).

Prior to sentencing, both Carter and Coleman filed extensive objections to their
presentence investigation reports. Carter argued that his PSR contained information
about counts dismissed as part of his plea agreement and wrongly increased his
offense level for "unduly influenc[ingj a minor to engage in prohibited sexual
conduct," U.S.S.G. § 2G1.3(b)(2)(B), and for "the commission of a sex act or sexual
contact," U.S.S.G. § 2G1 .3(b)(4)(A). Coleman claimed that his Guidelines range was
improperly enhanced by additional victims when he had not pleaded guilty to conduct
involving those victims. The district court1 overruled these objections and made
factual findings before imposing their sentences. Carter and Coleman were sentenced
to 175 and 300 months in prison, respectively.

'The Honorable John A. Jarvey, Chief Judge, United States District Court for
the Southern District of Iowa.
-4Appellate Case: 19-1153

Page: 4

22

Date Filed: 05/29/2020 Entry ID: 4918055

Sarina pleaded guilty as charged to interstate transportation of an individual to
engage in prostitution, 18 U.S.C. § 2421, and conspiracy to engage in sex trafficking
by force, fraud, or coercion, 18 U.S.C. § 1594(c). The indictment described the
conspiracy as one "to cause 'Victim 4' to engage in a commercial sex act, in violation
of 18 U.S.C. § 1591(a)(1), (a)(2) & (b)(1)."
Ronzell and Brown also pleaded guilty to charges under § 1594(c), and the
indictment described their offenses in the same way as Sarina' s except they conspired
to traffic a different victim. Based on the conspiracy charges, the district court set a
base offense level of 34 for all three defendants. The district court sentenced Sarina
to 135 months in prison, Ronzell to 36 months, and Brown to 50 months. Each was
sentenced below their Guidelines range-Ronzell and Brown significantly so.
II.

Carter and Coleman both argue that the district court erred when applying
enhancements to their offense levels. We review the district court's construction and
application of the Guidelines de novo and its factual findings for clear error. United
States v. Cordy, 560 F.3d 808, 817 (8th Cir. 2009).

Carter argues that the district court erred when it applied an enhancement for
exerting "undue influence" over Minor Victim A. See U.S.S.G. § 2G1.3(b)(2)(B).
Whether a defendant unduly influenced a victim is a factual question subject to clear
error review. See Un ited States v. Hagen, 641 F.3d 268,270(8th Cir. 2011). The key
question is "whether a participant's influence over the minor compromised the
voluntariness of the minor's behavior." U.S.S.G. § 2G1.3(b)(2)(B) cmt. 3(B).
At sentencing, the evidence showed Carter had physically abused Minor Victim
A. In one instance, he told her to get out of his car and then drove away while she
-5Appellate Case: 19-1 153

Page: 5

23
Date Filed: 05/29/2020 Entry ID: 4918055

was still getting out, hurting her and causing her to fall. Carter's co-defendant
proffered that he saw Carter hit Minor Victim A. Another victim reported seeing
pictures of Minor Victim A's face when her "eye was black, literally, like black, it
was swollen shut; her nose was bleeding" as a result of an altercation with Carter.
Carter also emotionally abused Minor Victim A. He would get angry with her when
she wouldn't "go on a date" he had arranged. Based on this evidence and given that
Carter was nine years older than Minor Victim A, the district court did not clearly err
when it found that Carter unduly influenced her and compromised the voluntariness
of her behavior.

Carter next argues that the district court erred by applying the enhancement for
an offense involving "the commission of a sex act or sexual contact." See U.S.S.G.
§ 24-fb)(4)(A). The Guidelines authorize a two -level increase if "the offense
involved the commission of a sex act or sexual contact," id., or ifthe offense was not
one under 18 U.S.C. § 1591(b) and involved a commercial sex act," U.S.S.G.
§ 2G1 .3(b)(4)(B). Carter does not dispute that sex acts occurred. Rather, he makes
the purely legal argument that the enhancement should not apply because his offense
under § 1591(b)( 1) involved commercial sex acts, which he views as only enhancing
convictions under different statutes. Any other reading, he argues, would reduce the
special rule for commercial sex acts to "mere surplusage."
"

We disagree. Section 2G1 .3(b)(4)(A) imposes a two -level increase for any
offense to which § 2G1 .3 applies that "involved the commission of a sex act or sexual
contact." Because Carter's offense falls under § 2G1 .3 and involved the commission
of a sex act, the enhancement applies. This reading does not render § 2G1 .3(b)(4)(B)
"mere surplusage." Where (b)(4)(A) applies to offenses that"involved the commission
of a sex act or sexual contact," (b)(4)(B) applies only to offenses other than those
under § 1591(b) but is triggered wherever the offense "involved a commercial sex
act." Because it does not require "the commission of' a commercial sex act, the
-6Appeflate Case: 19-1153

Page: 6

24

Date Ffled: 05/29/2020 Entry ID: 4918055

(b)(4)(B) enhancement may be applied, for example, in a case where someone
attempts to coerce a minor into committing a commercial sex act, but no sex act
ultimately occurs. See 18 U.S.C. § 2422(b) (prohibiting, subject to jurisdictional
elements, coercion of minors to engage in criminal sexual activities). The district
court properly applied the enhancement here.

c.
Both Carter and coleman challenge their enhancements for promoting
commercial sex acts with additional victims (Victims 1 and 2 in Carter's case,
Victims 5 through 9 in Coleman's). They argue that because they did not plead guilty
to any charges involving those additional victims and because they objected to the
facts related to those victims in their PSRs, it was inappropriate for the district court
to consider those victims at sentencing.
Both U.S.S.G. § 2G1.3(d), which applies to Carter, and § 2G1.1(d), which
applies to Coleman, prescribe how to account for additional victims. Under these
provisions, where the "relevant conduct of an offense of conviction" includes
promoting a commercial sex act with respect to additional individuals, whether or not
those individuals are referenced in the count of conviction, each victim is treated as
though they were represented by a separate count." U.S.S.G. § 2G1.1 cmt. 5, 2G1.3
cmt. 6. "Relevant conduct" includes "all acts and omissions committed, aided,
abetted, counseled, commanded, induced, procured, or willfully caused by the
defendant. that occurred during the commission of the offense of conviction."
U.S.S.G. § 1B1.3(a)(1)(A).
.

.

Coleman's additional victims are relevant conduct under this definition.
Although the charges relating to these victims were dismissed, they still may be
considered to enhance Coleman's sentence. See United States v. Williams, 879 F.2d
454, 457 (8th Cir. 1989). The broad language in § lB 1.3 "indicates the Sentencing
Commission's intent to give courts the discretion to consider a broad range of

Appellate Case: 19-1153

25

Page: 7

Date Filed: 05/29/2020 Entry ID: 4918055

conduct in making adjustments," and so we have declined to infer a limitation
precluding courts from considering conduct related to dismissed counts. Id.
The claim that Coleman's enhancement lacked supporting factual findings also
fails. The district court made the findings necessary to apply the enhancements to
Coleman and, to the extent that he argues that his plea agreement forbids the
attribution of additional victims, he is mistaken. Coleman's plea agreement left the
Government free to "make whatever comment and evidentiary offer [it] deem[s]
appropriate at the time of sentencing," notwithstanding the dismissal of the counts
directly related to these victims.
All of the above would apply equally to Carter, but for one important
difference between the Guidelines provisions at issue. Section 2G1 .3(d), unlike
§ 2G1 .1(d), specifies that the additional victims used to enhance a sentence under that
section must be minors, and Carter's were not. Carter therefore argues that his
sentence should not have been enhanced under § 2G1.3(d). Carter first identified this
issue in his reply brief and so we can decline to consider it. United States v. Head,
340 F.3d 628, 630 n.4 (8th Cir. 2003). We do so here, because it is clear from the
record that the district court would have given Carter the same sentence regardless
of his Guidelines recommendation.
III.

Coleman makes two arguments that we cannot consider on appeal. First, he
argues that the district court should not have followed U.S.S.G. § 2G1.1(a)(1) to
apply a base offense level of34 to his conviction for coercing an individual to engage
in prostitution. In his view, this provision sets up an excessive disparity not based on
empirical data between the base level for offenses under 18 U.S.C. § 1591(b)( 1) and
those under all other statutes.

Appellate Case: 19-1153

Page: 8

26

Date Filed: 05/29/2020 Entry ID: 4918055

We do not consider policy arguments about the Guidelines on appeal. United
States v. Riehi, 779 F.3d 776, 778 (8th Cir. 2015) (per curiam). District courts are
free to vary from the Guidelines based on them, but it is not an abuse ofdiscretion for
a district court to decline to do so. United States v. Sharkey, 895 F.3d 1077, 1082

(8th Cir. 2018).
Second, Coleman argues that the district court erred when it denied his motion
for a downward departure for overrepresented criminal history under U.S.S.G.
§ 4A1.3(b)(1). We do not have authority to review that decision because the district
court recognized it had the power to depart downward and Coleman does not argue
it had an unconstitutional motive for failing to do so. United States v. Woods, 596
F.3d 445, 449 (8th Cir. 2010).
Iv.

Finally, both Coleman and Carter argue the district court committed procedural
error at sentencing and their sentences were substantively unreasonable. We first
assess whether the district court committed significant procedural error. United
States v. Williams, 624 F.3d 889, 896 (8th Cir. 2010). If we find none, we review the
substantive reasonableness ofthe sentences, applying a deferential abuse ofdiscretion
standard. United States v. Stoner, 795 F.3d 883, 884 (8th Cir. 2015).

Both Coleman and Carter argue the district court procedurally erred by relying
but never ruling on objected to facts in their PSRs. See United States v. Feemster,
572 F.3d 455, 461 (8th Cir. 2009) (en banc) (A district court commits procedural
error if it sentences "based on clearly erroneous facts."). Nothing in the record
supports this argument. The district court made factual findings at Carter's
sentencing that supported its conclusion that he behaved in a "depraved" way and that
society needed protection from him. Carter has failed to identify any moment during
his sentencing when the district court relied on still -disputed facts. See Carter Sent.
Tr. 33. The record is even clearer in Coleman's case. The district court overruled all
-9Appellate Case: 19-1153

27

Page: 9

Date Filed: 05/29/2020 Entry ID: 4918055

his objections to the PSR and found that it was "factually accurate as to all material
matters" and sentenced him based on that finding. Coleman Sent. Tr. 87-88.
Coleman claims that his sentence is substantively unreasonable because the
district court failed to account for his history and characteristics and considered his
co-defendants' actions in setting his sentence.2 A sentence may be substantively
unreasonable if a district court fails to consider a relevant factor that deserves
significant weight, gives significant weight to an inappropriate factor, or commits a
clear error ofjudgment in weighing the appropriate factors. Stoner, 795 F.3d at 884.
Again, Coleman's argument finds no support in the record. In fact, the court
considered each § 3 553(a) factor, specifically mentioned Coleman's criminal history,
and grappled with the "astounding depravity" of Coleman's conduct. We also note
that Coleman's sentence is below his Guidelines range. It is "nearly inconceivable"
that it could be substantively unreasonable. United States v. Lazarski, 560 F.3d 731,
733 (8th Cir. 2009).
V.

Sarina, Ronzell, and Brown all object to the base offense level of 34 for their
convictions for conspiracy to engage in sex trafficking by force, fraud, or coercion,
in violation of 18 U.S.C. § 1594(c). We review the proper construction of the
Guidelines de novo. Cordy, 560 F.3d at 817.

2

Carter also claims that his sentence is substantively unreasonable, Carter Br.
30, but for support he primarily rehashes his argument that the district court wrongly
considered objected -to portions of his PSR. He also claims his sentence was
substantively unreasonable because the district court failed to explain its sentence in
a way that would facilitate our review. Id. at 34-35. This is really a claim of
procedural error, see Feemster, 572 F.3d at 463, and in any case the district court
provided an adequate explanation of its reasons.
-10Appellate Case: 19-1153

Page: 10

28

Date Filed: 05/29/2020 Entry ID: 4918055

Conspiracies punished under § 1594(c) are not covered by a specific offense
Guideline, so we begin with the catch-all provision at U.S.S.G. § 2X1.1. Section
2X1.1(a) sets the base offense level for a conspiracy conviction not covered by a
specific Guideline as the "base offense level from the guideline for the [underlying]
substantive offense." The indictment lists the underlying substantive offense for all
three of these defendants as 18 U.S.C. § 1591(a)(1), (a)(2), & (b)(1). For those
offenses, we refer to § 2G1.1, which prescribes a base offense level of 34 "if the
offense of conviction is 18 U.S.C. § 159 1(b)(1)" and 14 if "otherwise." Because the
underlying substantive offense for all three defendants is § 1591(b)(1) and the
applicable Guidelines provision ( 2X1.1) directs that we treat these defendants as
though they were convicted under § 1591 (b)( 1), we conclude the district court
correctly assigned all three ofthese defendants base offense levels of 34. See United
States v. Sims, 957 F.3d 362, 363 (3d Cir. 2020) (following the same steps to reach
a base offense level of 34).

The defendants suggest otherwise. Noting that § 2G1 .1 directs that the base
offense level for any convictions other than those under § 159 1(b)(1) should be 14,
they argue they should have received the lower base offense level for their
convictions under § 1594(c). This argument only works if we read § 2G1.1 in
isolation, but we cannot do that. Section 2G1.1 is not the applicable Guideline for
convictions under § 1594(c). We only get there through § 2X1.1, so we must read
§ 2G1.1 in light of § 2X1.1. Even if that were not the case, the specific guidance
from § 2X1.1 comports with the general rule that "[u]nless otherwise specified, an
express direction to apply a particular factor only if the defendant was convicted of
a particular statute includes the determination of the offense level where the
defendant was convicted of conspiracy
in respect to that particular statute."
U.S.S.G. § 1B1.3, cmt. 7. Following both general interpretive principles for the
Guidelines and the specific provisions at issue here, the district court assigned the
correct base offense levels.
.

.

.

-11Appellate Case: 19-1153

Page: 11

29

Date Filed: 05/29/2020 Entry ID: 4918055

The defendants rely on Un ited States v. WeiLin, 841 F.3d 823 (9th Cir. 2016)
to support their reading of § 2G1 .1. In Wei Lin, the Ninth Circuit held that the base
offense level of 34 applied only in cases where defendants were subject to the
statutory 15 -year mandatory minimum sentence described in § 1591(b)( 1). Id. at 826.
Because conspiracies under § 1594(c) are not subject to those minimums, the Wei Lin
rule prevents any conspiracy conviction from receiving a base offense level of 34.
We do not believe Wei Lin should govern our decision here. See Sims, 957
F.3d at 364 (noting that applying Wei Lin "lead[sj to absurd results"). The Ninth
Circuit arrived at its rule based on what it believed was "most likely what the
Sentencing Commission intended." Id. at 827. Because the base offense level of 34
in § 2G1 .1(a)( 1) was created in response to Congress adding the 15-year mandatory
minimum for trafficking victims under 14 years old, the Wei Lin court concluded that
"the Commission likely intended § 2G1.1(a)(1) to apply only when the defendant
received a fifteen -year mandatory minimum sentence." Id. Compelling as this
history might be, "[w]hen construing the Guidelines, we look first to the plain
language, and where that is unambiguous we need look no further." United States v.
Bah, 439 F.3d 423, 427 (8th Cir. 2006). And here, where the applicable Guidelines
provision directs us to apply the provisions of § 2G1.1(a)(1) as though these
defendants were convicted of violating § 159 1(b)(1), we find no ambiguity.3
*

*

*

Finding no error in the defendants' sentences, we affirm.

The application of the Guidelines is clearer here than it was in Wei Lin. Wei
Lin's indictment only charged conspiracy to violate § 1591(a) and the conduct at
issue would have qualified him, had he been convicted of the substantive offense, for
sentencing under § 1591(b)(1). 841 F.3d at 825. By contrast, each of these three
defendants were charged with conspiring to violate § 1591(b)( 1) itself. We need look
no further than the indictment and U.S.S.G. § 2X1.1 & 2G1.1 to properly set the
base offense levels for these defendants.
-12Appellate Case: 19-1153

30

Page: 12

Date Filed: 05/29/2020 Entry ID: 4918055

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 19-1153

United States of America
Appellee
V.

Mark Phillip Carter, II
Appellant

Human Trafficking Institute
Amicus on Behalf of Appellee(s)

Appeal from U.S. District Court for the Southern District of Iowa Des Moines
(4:18 -cr -00053 -JAJ-2)
-

[I] 1I1 I 1

The petition for rehearing en banc is denied. The petition for rehearing by the panel is
also denied.
Judge Kelly did not participate in the consideration or decision of this matter.

July 13, 2020

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
Is! Michael E. Gans

Appellate Case: 19-1153

Page: 1

31
Date Filed: 07/13/2020 Entry ID: 4932784

AO 2455 (Rev. 02/18)

Case
4:1 -cr -Q053 -JAJ-HCA Document 395 Piled 01/16/19 Page 1 of 7
Judgment in a ..riminai .ase

vi

Sheet I

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF IOWA
JUDGMENT IN A CRIMINAL CASE

UNITED STATES OF AMERICA
V.

Case Number: 4:18 -cr-00053-002

Mark Phillip Carter II

USM Number: 18594-030
Angela Lynnette Campbell
Defendant's Attorney

THE DEFENDANT:
pleaded guilty to count(s)

Eight of the Second Superseding Indictment filed

on August 28, 2018.

0 pleaded nob contendere to count(s)
which was accepted by the court.
O was found guilty on count(s)
after a plea of not guilty.

The defendant is adjudicated guilty of these offenses:
Title & Section

18 U.S.C. § 1591(a)(1),

Nature of Offense

Offense Ended

Sex Trafficking of Children

07/2017

Count

Eight

1591(b)(2)

0 See additional count(s) on page 2
The defendant is sentenced as provided in pages 2 through 7
Sentencing Reform Act of 1984.

of this judgment. The sentence is imposed pursuant to the

o The defendant has been found not guilty on count(s)

'Count(s)

1,2, 5, 6, 7, 9, 11, and 12

0 is

are dismissed on the motion of the United States.

It is ordered that the defendant must noti1' the United States Attorney for this district within 30 days ofany change ofname, residence,
or mailing address until all fmes, restitution, costs, and special assessments imposed by this judgment are fully paid. If ordered to pay restitution,
the defendant must notif' the court and United States attorney of material changes in economic circumstances.

January 16, 2019
Date of Imposition of Judgment

John A. Jarvey, Chief
Name of Judge

Date

32

.

District Judge
Title of Judge

'7
January

.

2019

149ç53 -3AJ-HCA Document 395 flied 01/16/19

A0245B(Rcv.02118)

Q

vi

Sheet 2- Imprisonment

Page 2 of 7
Judgment Page: 2 of 7

DEFENDANT: Mark Phillip Carter II
CASE NUMBER: 4:18 -cr-00053-002

IMPRISONMENT
The defendant is hereby committed to the custody of the United States Bureau of Prisons to be imprisoned for a
total term of:

175 months as to Count Eight of the Second Superseding Indictment filed on August 28, 2018.

U The court makes the following recommendations to the Bureau of Prisons:

l!I The defendant is remanded to the custody of the United States Marshal.
C] The defendant shall surrender to the United States Marshal for this district:

Dat

0 a.m.

0 p.m.

on

0 as notified by the United States Marshal.
D The defendant shall surrender for service of sentence at the institution designated by the Bureau of Prisons:
on
0 before
C] as notified by the United States Marshal.

0 as notified by the Probation or Pretrial Services Office.

RETURN
I lave executed this judgment as follows:

Defendant delivered on
a

to

with a certified copy of this judgment.

UNITED STATES MARSHAL

DEPUTY UNITED STATES MARSHAL

33

AO 245B (Rev. 02/18)

Case
4:1 -cr-Q.O053-JAJ-HCA Document 395 Filed 01/16/19 Page 3 of 7
Jwtgment in a Lr mina, ase

vi

Sheet 3 -Supervised Release

Judgment Page: 3 of 7

DEFENDANT: Mark Phillip Carter II
CASE NUMBER: 4:18 -cr-00053-002

SUPERVISED RELEASE
Upon release from imprisonment, you will be on supervised release for a term of:
Fhe years as to Count Eight of the Second Superseding Indictment filed on August 28, 2018.

MANDATORY CONDITIONS
1.

2.
3.

4.
5.

6.
7.

You must not commit another federal, state or local crime.
You must not unlawfully possess a controlled substance.
You must refrain from any unlawful use of a controlled substance. You must submit to one drug test within 15 days of release from
imprisonment and at least two periodic drug tests thereafter, as determined by the court.
0 The above drug testing condition is suspended, based on the court's determination that you

pose a low risk of future substance abuse. (check (appIicabIe)
0 You must make restitution in accordance with 18 U.S.C. § 3663 and 3663A or any other statute authorizing a sentence of
restitution. (check fapplicable)
"You must cooperate in the collection of DNA as directed by the probation officer. (check fapplicable)
M' You must comply with the requirements of the Sex Offender Registration and Notification Act (34 U.S.C. § 20901, el seq.)
as directed by the probation officer, the Bureau of Prisons, or any state sex offender registration agency in which you reside, work,
are a student, or were convicted of a quaIifjing offense. (check Uapplicable)
0 You must participate in an approved program for domestic violence. (check t(applicable)

You must comply with the standard conditions that have been adopted by this court as well as with any other conditions on the attached

page.

34

A0245B(Rcv.02/18)

c

t

Stiert 3A

v

fJ953-JAJ-HCA

Document 395 Filed 01/16/19 Page 4 of 7

Superytsed Release

Judgment Page: 4 o17

DEFENDANT: Mark PhiHip Carter II
CASE NUMBER: 4:18 -cr-00053-002

STANDARD CONDITIONS OF SUPERVISION
As part of your supervised release, you must comply with the following standard conditions of supervision. These conditions are imposed
because they establish the basic expectations for your behavior while on supervision and identify the minimum tools needed by probation
officers to keep informed, report to the court about, and bring about improvements in your conduct and condition.
1.

2.
3.
4.

5.

6.
7.

8.
9.
10.
11.

12.
13.

You must report to the probation office in the federal judicial district where you are authorized to reside within 72 hours of your
release from imprisonment, unless the probation officer instructs you to report to a different probation office or within a different time
frame.
After initially reporting to the probation office, you will receive instructions from the court or the probation officer about how and
when you must report to the probation officer, and you must report to the probation officer as instructed.
You must not knowingly leave the federal judicial district where you are authorized to reside without first getting permission from the
court or the probation officer,
You must answer truthfully the questions asked by your probation officer.
You must live at a place approved by the probation officer. If you plan to change where you live or anything about your living
arrangements (such as the people you live with), you must notify the probation officer at least 10 days before the change. If notifying
the probation officer in advance is not possible due to unanticipated circumstances, you must notify the probation officer within 72
hours of becoming aware of a change or expected change.
You must allow the probation officer to visit you at any time at your home or elsewhere, and you must permit the probation officer to
take any items prohibited by the conditions of your supervision that he or she observes in plain view.
You must work full time (at least 30 hours per week) at a lawful type of employment, unless the probation officer excuses you from
doing so. If you do not have full-time employment you must try to find hill-time employment, unless the probation officer excuses
you from doing so. If you plan to change where you work or anything about your work (such a.s your position or your job
responsibilities), you must notify the probation officer at least 10 days before the change. If notifying the probation officer at least 10
days in advance is not possible due to unanticipated circumstances, you must notify the probation officer within 72 hours of
becoming aware of a change or expected change.
You must not communicate or interact with someone you know is engaged in criminal activity. Ifyou know someone has been
convicted of a felony, you must not knowingly communicate or interact with that person without first getting the permission of the
probation officer.
If you are arrested or questioned by a law enforcement officer, you must notify the probation officer within 72 hours.
You must not own, possess. or have access to a firearm, ammunition, destructive device, or dangerous weapon (i.e., anything that was
designed, or was modified for, the specific purpose of causing bodily injury or death to another person such as nunchakus or tasers).
You must not act or make any agreement with a law enforcement agency to act as a confidential human source or informant without
first getting the permission of the court.
If the probation officer determines that you pose a risk to another person (including an organization), the probation officer may
require you to notify the person about the risk and you must comply with that instruction. The probation officer may contact the
person and confirm that you have notified the person about the risk.
You must follow the instructions of the probation officer related to the conditions of supervision.

U.S. Probation Office Use Only
A U.S. probation officer has instructed me on the conditions specified by the court and has provided me with a written copy ofthis
judgment containing these conditions. For further information regarding these conditions, see Overview of Probation and Supervised
Re!ea.ie Conditions', available at: www.uscourts.v.

Defendant's Signature

Date

35

A0245B(Rcv.02/18)
vi

niIiia953jA3
Sheet 3D

-

Document 395 Filed 01/16/19 Page 5 of 7

Supervised Release

DEFENDANT: Mark Philip Carter II
CASE NUMBER: 4:18 -cr-00053-002

Judgment Page: 5 of 7

SPECIAL CONDITIONS OF SUPERVISION
You must participate in a sex offender treatment program, to include psychological testing and polygraph examinations, as
directed by the U.S. Probation Officer. You must also abide by all supplemental conditions of sex offender treatment, to
include abstaining from alcohol. Participation may include inpatient/outpatient treatment, if deemed necessary by the
treatment provider. You must contribute to the costs of services rendered (co-payment) based on ability to pay or
availability of third party payment. Sex offender assessments and treatment shall be conducted by therapists and
polygraph examiners approved by the U.S. Probation Office, who shall release all reports to the U.S. Probation Office. The
results of polygraph examinations will not be used for the purpose of revocation of supervised release or probation. If
disclosure is required by mandatory reporting laws, polygraph results will be reported to appropriate treatment personnel,
law enforcement, and related agencies with the approval of the Court. If polygraph results reveal possible new criminal
behavior, this will be reported to the appropriate law enforcement and related agencies after obtaining approval from the
Court.
You must comply with all sex offender laws for the state in which you reside and must register with the local sheriff's office
within the applicable time frame.
You must refrain from associating with anyone engaged in the exploitation of minors whether known or unknown to local,
state, or federal law enforcement.
You must not have any direct contact (personal, electronic, mail, or otherwise) with any child you know or reasonably
should know to be under the age of 18, including in employment, without the prior approval of the U.S. Probation Officer. If
contact is approved, you must comply with any conditions or limitations on this contact, as set forth by the U.S. Probation
Officer. Any unapproved direct contact must be reported to the U.S. Probation Officer within 24 hours. Direct contact does
not include incidental contact during ordinary daily activities in public places.
You must not contact the victim(s), nor the victim's family without prior permission from the U.S. Probation Officer.
You must not associate with any prostitute or anyone you should reasonably know to be a prostitute or places where
prostitution is a known activity.
You must participate in a cognitive behavioral treatment program, which may include journaling and other curriculum
requirements, as directed by the U.S. Probation Officer.

You must submit to a mental health evaluation. If treatment is recommended, you must participate in an approved
treatment program and abide by all supplemental conditions of treatment. Participation may include inpatient/outpatient
treatment and/or compliance with a medication regimen. You will contribute to the costs of services rendered (co-payment)
based on ability to pay or availability of third party payment.
You will submit to a search of your person, property, residence, adjacent structures, office, vehicle, papers, computers (as
defined in 18 U.S.C. § 1030(e)(1 )), and other electronic communications or data storage devices or media, conducted by a
U.S. Probation Officer. Failure to submit to a search may be grounds for revocation. You must warn any other residents or
occupants that the premises and/or vehicle may be subject to searches pursuant to this condition. An officer may conduct
a search pursuant to this condition only when reasonable suspicion exists that you have violated a condition of your
release and/or that the area(s) or item(s) to be searched contain evidence of this violation or contain contraband. Any
search must be conducted at a reasonable time and in a reasonable manner. This condition may be invoked with or
without the assistance of law enforcement, including the U.S. Marshals Service.

You must participate in a program of testing and/or treatment for substance abuse, as directed by the Probation Officer,
until such time as the defendant is released from the program by the Probation Office. At the direction of the probation
office, you must receive a substance abuse evaluation and participate in inpatient and/or outpatient treatment, as
recommended. Participation may also include compliance with a medication regimen. You will contribute to the costs of
services rendered (co-payment) based on ability to pay or availability of third party payment. You must not use alcohol
and/or other intoxicants during the course of supervision.

AO 245B (Rev. 02/18)

Q4rdi53-JAJ-HCA Document 395 Filed 01/16/19 Page 6 of 7
Shcct 5- Criminal Monetary Pcnaities

Judgment Page: 6 of 7

DEFENDANT: Mark Phillip Carter
CASE NUMBER: 4:18-cr-00053-002

CRIMINAL MONETARY PENALTIES
The defendant must pay the total criminal monetary penalties under the schedule of payments on Sheet 6.

o

Pursuant to 18 U.S.C. § 3573, upon the motion of the government, the Court hereby remits the defendant's Special Penalty

Assessment: the fee is waived and no payment is required.
Assessment
$ 100.00

TOTALS

JYTA Assessment

Fine

*

$ 0.00

Restitution

$0.00

$ 0.00

0 The determination of restitution is deferred until

-. An Arnendt'dJzidgment in a Cri,ninal Case (AO 245C) will be entered

after such determination.

0 The defendant must make restitution (including community restitution) to the following payces in the amount listed below.
If the defendant makes a partial payment, each payee shall receive an approximately proportioned payment, unless specified otherwise in
the priority order or percentage payment column below. However, pursuant to 18 U.S.C. § 3664(i), all nonfederal victims must be paid
before the United States is paid.
Name of Payee

Restitution Ordered

Total Loss**

Priority

or Perceiitac

-

.
.

.
.

f4

.-

.-

.

.

..

F

-

----

-

-.----

-

..

..

-

-

-

-

-

-.

-.

---i

.'

-.

--

,-

--

-

-

-.

-k

-

----

$0.00

TOTALS

$0.00

0

Restitution amount ordered pursuant to plea agreement $

o

The defendant must pay interest on restitution and a fine of more than $2,500, unless the restitution or fine is paid in full before the
fifteenth day after the date of thejudgment, pursuant to 18 U.S.C. § 3612(f). All of the payment options on Sheet 6 may be subject
to penalties for delinquency and default, pursuant to 18 U.S.C. § 3612(g).

0 The court determined that the defendant does not have the ability to pay interest and it is ordered that:
0 the interest requirement is waived for the
0 the interest requirement for the

0 fine

0 fine 0 restitution.
0 restitution is modified as follows:

Justice for Victims of Trafficking Act of 2015, Pub. L. No. 114-22.
Findings for the total amount of losses are required under Chapters 109A, 110, I bA, and I 13A of Title IS for offenses committed on or
after September 13, 1994, but before April 23, 1996.
*

**

37

4f,j53-JAJHCA Document 395 Piled 01/16/19 Page 7 of 7

AO 245B (Rev. 02/18)

Sheet 6 -Schedule of Payments

vi

Judgment Page: 7 of 7

DEFENDANT: Mark Phillip Carter II
CASE NUMBER: 4:18-cr-00053-002

SCHEDULE OF PAYMENTS
Having assessed the defendant's ability to pay, payment of the total criminal monetary penalties is due as follows:
Lump sum payment of $ 100.00

A

o

not later than
[.' in accordance

fl C,

due immediately, balance due

fl D,

,or
0 E,or

Payment to begin immediately (may be combined with

B

0

C

0 Payment in equal

D

0 Payment in equal

F below; or

0 C,

0 D, or

F below); or

___________

__________

_____________

_____________

(e.g., weekly, monthly, quarterly) installments of $
(e.g.. 30 or 60 days) after the
(e.g.. months or years.), to commence

over a period of
date of this judgment; or

_____________

_____________

__________

___________

(e.g.. weekly, monthly, quarterly) installments of $
(e.g.. months or years.), to commence
(e.g.. 30 or 60 days) after release

term

over a period of
from imprisonment to a

of supervision; or

E

(e.g., 30 60 days) after release from
0 Payment during the term of supervised release will commence within
imprisonment. The court will set the payment plan based on an assessment of the defendant's ability to pay at that time; or

F

E'

___________

a,'

Special instructions regarding the payment of criminal monetary penalties:

All criminal monetary payments are to be made to the Clerk's Office, U.S. District Court, P.O. Box 9344,
Des Moines, IA. 50306-9344.
While on supervised release, you shall cooperate with the Probation Officer in developing a monthly payment plan
consistent with a schedule of allowable expenses provided by the Probation Office.
Unless the court has expressly ordered otherwise, if this judgment imposes imprisonment, payment of criminal monetary penalties is due during
the period of imprisonment. All crimnal monetary penalties, except those payments made through the Federal Bureau of Prisons' Inmate
Fmancial Responsibility Program, are made to the clerk of the court.
The defendant shall receive credit for all payments previously made toward any criminal monetary penalties imposed.

0 Joint and Several
Defendant and Co-Defendant Names and Case Numbers (including defendant number), Total Amount, Joint and Several Amount,
and corresponding payee, if appropriate.

0 The defendant shall pay the cost of prosecution.

0 The defendant shall pay the following court cost(s):
The defendant shall forfeit the defendant's interest in the following property to the United States:

a Hi-Point C9 9mm pistol (SN: P1585403), as outlined in the Preliminary Order of Forfeiture entered on December 14,
2018.
Payments shall be applied in the following order: (1) assessment (2) restitution principal (3) restitution interest, (4) fine principal,(5) fme
mterest, (6) community restitution, (7) JVTA assessment, and (8 costs, including cost ofprosecution and court costs.

38

Case 4:18 -cr -00053-JAJ-HCA Document 464 Filed 02/13/19 Page 28 of 37
28
1
2

registry, and he's in Criminal History Category I.
We simply argue, Your Honor, that 120 months is sufficient

3

to punish him for the conduct that he is responsible for and

4

that he's admitted to having participated in.

5

6

THE COURT:

We'll get to that.

guidelines resolved first.

7

MS. CAMPBELL:

8

THE COURT:

9

Let's just get the

Okay.

Thank you.

I make the findings requested by the

Government in Attachment A to the sentencing memorandum, and I

10

do find that Attachment B is the correct scoring of the

11

sentencing guidelines here.

12

Jada is certainly a vulnerable victim because of her age,

13

because of the age difference, because of the way they were

14

treated by the defendant, the threats and all that.

15

certainly a vulnerable victim, and there was that undue

16

influence and coercion here.

17

He has a total offense level of 34 and a criminal history

18

category of I.

19

between 151 and 188 months.

20
21
22

23

She's

That would suggest a range of imprisonment

I'd hear first from you, Ms. Campbell,
Mr. Carter,

and then from

and then from Ms. Bruner before imposing sentence.

MS. CAMPBELL:

Thank you, Your Honor.

I think we've set forth a lot of our arguments in our

24

sentencing memorandum, the arguments about we believe that,

25

again, 120 months is sufficient but not greater than necessary

39

Case 4:18.-cr -00053 -JAJ-HCA Document 464 Filed 02/13/19 Page 33 of 37
33
1

THE COURT:

In fashioning an appropriate sentence,

2

have considered each of the factors found in Title 18, United

3

States Code, Section 3553 (a)

4

nature and circumstances of this offense,

5

and characteristics of Mr. Carter.

6

.

That means I have considered the

as well as the history

I have considered the seriousness of the offense.

This is

7

exceedingly serious behavior.

8

it was lucrative, it was degrading, it was depraved, and it

9

damaged young women irrevocably.

10

It was repeated,

an otherwise insignificant criminal history.

12

criminality at a very high level.

14

15

it was abusive,

I have considered the question of just punishment and note

11

13

He jumped into

It's true the letters in support of Mr. Carter show a

different person.

It tells me you want to be on his good side.

I considered the need for adequate deterrence to criminal

16

conduct.

17

the public from further crimes from the defendant is real.

18

That's an important fact here.

The need to protect

I've considered the sentencing options that are available

19

to the Court, and I looked to the sentencing guidelines as an

20

important, though not in any way controlling, factor to be

21

considered.

22

I

If it wasn't so serious, it would be amusing how difficult

23

the sentencing guidelines are here.

24

about a commercial sex act or a sex act is

25

spent on that is nearly a waste of time because we're talking

40

To parse that guideline
--

all the time we

Case 4:18 -cr -00053-JAJ-HCA Document 464 Filed 02/13/19 Page 34 of 37
34

1
2

3

We do this too often where we get so deep into the

4

sentencing guidelines that we forget about what the behavior is,

5

and for that reason the sentence that the Court imposes here is

6

not driven by the sentencing guidelines,

7

behavior.

8

sentencing disparity among defendants with similar records who

9

have been found guilty of similar conduct.

10

itTs driven by the

It's all driven by the need to avoid unwarranted

Ms. Williams received a 135 -month sentence.

She's not

11

nearly as culpable as Mr. Carter.

12

history, but her criminal history was also relatively

13

insignificant in that it was made up of prostitution and minor

14

drug charges.

15

She has a worse criminal

I considered the need for restitution.

The Government

16
17
18

following sentence is sufficient but not greater than necessary

19

to address the essential sentencing considerations.

20

judgment of the Court that Mark Phillip Carter, II is sentenced

21

to the custody of the Bureau of Prisons for 175 months

22

8 of the indictment.

23

It is the

on Count

Upon release from prison, you'll be placed on supervised

24

release for five years.

25

Bureau of Prisons,

Within 72 hours of release from the

you shall report in person to the probation

41

Case 4:18 -cr -00053-JAJ-HCA Document 464

iIed 02/13/19 Page 35 of 37
35

1
2

office in the district where you are released.
While on supervised release, you shall not commit another

3

federal, state, or local crime; you shall not possess a firearm

4

or other destructive device; you shall not illegally possess a

5

controlled substance.

6

You shall comply with all the standard conditions of

7

supervision as adopted by the Sentencing Commission plus the

8

special conditions found in your presentence report at

9

paragraphs 265 to 274.

10

I find that you do not have the ability to pay a fine.

You

11

are ordered to pay the $100 special assessment to the victims'

12

assistance fund.

13

interest to the Clerk of Court.

14
15

It's due and payable immediately without

You have a motion to make with respect to the remaining
counts?

16

MS. BRUNER:

Yes,

Your Honor.

The Government moves

17

to dismiss the remaining counts, which are 1,

18

and 12.

19
20

THE COURT:

They're dismissed.

You have the right to take an immediate appeal from this

21

judgment.

22

today.

23

2, 5, 6, 7, 9, 11,

Any appeal has to be filed within 14 days from

Anything else, Ms. Campbell?

24

MS. CAMPBELL:

25

THE COURT:

No,

Your Honor.

Ms. Bruner?

